No.
In the Supreme Court of the United States

ADAMS JOEL FORTY-FEBRES, a/k/a Adams Forty-Febres,
PETITIONER
v.
UNITED STATES
RESPONDENT

PROOF OF SERVICE OF PETITION FOR WRIT OF CERTIORARI AND
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

I, Ovidio E. Zayas-Pérez, do hereby duly swear, declare, and certify that on
this date, December 21th, 2020, as required by the Supreme Court Rule 29, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelop containing the above documents in the United
States mail properly addressed to each of them and with first class priority postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
1

(1) Solicitor General of the United States, Room 5616, Department of
Justice, 950 Pennsylvania Avenue, N.W, Washington, D.C. 20530-0001;
(2) Mr. Stephen Muldrow, Esq., U.S. Attorney, U.S. Department of Justice,
Criminal Division, at Torre Chardón, Suite 1201, 350 Carlos Chardón Street,
San Juan, Puerto Rico 00918;
(3) Petitioner Adams Joel Forty-Febres, Inmate Registration Number
48896-069, at F.C.I. Coleman Low, Federal Correctional Institution, P.O.
Box 1031, Coleman, FL 33521.
I declare under penalty of perjury that the foregoing is true and correct.
RESPECTFULLY SUBMITTED.
Executed at San Juan, Puerto Rico, on December 21st, 2020.

/s/ Ovidio E. Zayas-Pérez
Ovidio E. Zayas-Pérez, Esq.
U.S.C.A. - First Cir. Bar No. 1100397
PMB # 387, P.O. Box 194000,
San Juan, P.R. 00919-4000
Tel. No. (787) 754-6715
E-Mail: ovidiozayasperez.com

2

